No. 20-8306
IN THE
SUPREME COURT OF THE UNITED STATES

DONNIE JOE PHILLIPS, Petitioner,
VS.
UNITED STATES OF AMERICA, Respondent.

ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

PROOF OF SERVICE

ALEXIS HALLER
Counsel of Record
LAW OFFICE OF ALEXIS HALLER
7960B Soquel Drive, #130
Aptos, California 95003
(831) 685-4730
ahaller@ahlawoffice.com
Counsel of Record for Petitioner,
DONNIE JOE PHILLIPS

PROOF OF SERVICE
I, Alexis Haller, do swear that on this date, September 23, 2021, as
required by Supreme Court Rule 29, I have served the enclosed
PETITIONER’S REPLY BRIEF (as well as the instant Proof of Service) on
each party to the above proceeding or that party’s counsel, and on every other
person required to be served, by depositing an envelope containing the above
documents in the United States mail properly addressed to each of them and
with first-class postage prepaid.
The names and addresses of those served are as follows:
Solicitor General of the United States
Department of Justice, Room 5616
950 Pennsylvania Ave., N. W.
Washington, DC 20530-000
Counsel for the United States of America
(also served via e-mail at SupremeCtBriefs@USDOJ.gov)
Mr. Jason Hitt, Esq.
Assistant United States Attorney
501 I Street, Suite 10-100
Sacramento, CA 95814
Counsel for the United States of America
\\\
\\\
\\\
\\\
\\\
1

